No. 19-123
IN THE

Supreme Court
of the United States
_________
SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.
_________
On Writ of Certiorari to the United States
Court of Appeals
for the Third Circuit
_________
SUPPLEMENTAL APPENDIX TO CITY
RESPONDENTS’ BRIEF ON THE MERITS
_________
MARCEL C. PRATT
City Solicitor
DIANA P. CORTES
JANE LOVITCH ISTVAN
ELEANOR N. EWING
BENJAMIN H. FIELD
CYNTHIA SCHNEIDER
ELISE BRUHL
MICHAEL PFAUTZ
CITY OF PHILADELPHIA
LAW DEPARTMENT
1515 Arch Street
Philadelphia, PA 19102
JOSHUA MATZ
KAPLAN HECKER & FINK
350 Fifth Avenue
New York, NY 10118

NEAL KUMAR KATYAL
Counsel of Record
MITCHELL P. REICH
KIRTI DATLA
DANIELLE DESAULNIERS
STEMPEL
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-5600
neal.katyal@hoganlovells.com
THOMAS P. SCHMIDT
HOGAN LOVELLS US LLP
390 Madison Ave.
New York, NY 10017

Counsel for Respondents City of Philadelphia, Department of
Human Services for the City of Philadelphia, and Philadelphia Commission on Human Relations
(additional counsel listed on inside cover)

DEEPAK GUPTA
JONATHAN E. TAYLOR
LARK TURNER
ALEXANDRIA TWINEM
GUPTA WESSLER PLLC
1900 L Street, NW
Suite 312
Washington, D.C. 20036

TABLE OF CONTENTS
Page
Letter from Valerie M. Robinson, Chair,
Corporate and Tax Group, City of Philadelphia, Law Department to Suzanne
Hueston, General Counsel, Office of General Counsel, Archdiocese of Philadelphia
re: FY 2019 CSS Contract (Aug. 8, 2018)........ SA 1
Letter from Suzanne Hueston, Office for
General Counsel, Archdiocese of Philadelphia to Valerie Robinson, Chair, Corporate and Tax Group, City of Philadelphia Law Department re: Contract #1920338 Catholic Social Services FY19 PAFoster and Kinship Care Services (Oct.
25, 2018) ........................................................... SA 4
CSS FY19 Provider Agreement (Nov. 2,
2018) (excerpts) ................................................ SA 6
Letter from Valerie M. Robinson, Chair,
Corporate and Tax Group, City of Philadelphia, Law Department to Suzanne
Hueston, General Counsel, Office of General Counsel, Archdiocese of Philadelphia
re: FY2020 Catholic Social Services
(“CSS”) Placement Contract
(Apr. 16, 2019) ................................................ SA 20
Letter from Suzanne Hueston, Office for
General Counsel, Archdiocese of Philadelphia to Valerie Robinson, Chair, Corporate and Tax Group, City of Philadelphia Law Department re: Contract #1920338-01 Catholic Social Services FY20
(i)

ii
TABLE OF CONTENTS—Continued
Page
PA-Foster and Kinship Care Services
(Aug. 29, 2019) ............................................... SA 25
CSS FY20 Standard Amendment Agreement
(Sept. 23, 2019) (excerpts) ............................. SA 27
Letter from Kimberly Ali, Commissioner,
City of Philadelphia, Department of Human Services, to James Amato, Secretary,
Human Services, Catholic Social Services
re: FY 2021 Award Letter (290) SAA (July
15, 2020) ......................................................... SA 40

CITY OF PHILADELPHIA
LAW DEPARTMENT
One Parkway
1515 Arch Street
Philadelphia, PA 19102-1595
Marcel S. Pratt
City Solicitor
Valerie M. Robinson
Chair, Corporate and Tax Group
(215) 683-5031 (Direct Dial)
(215) 683-5069 (Facsimile)
August 8, 2018
Suzanne Hueston
General Counsel
Office of General Counsel
Archdiocese of Philadelphia
222 North 17th Street
Philadelphia, Pennsylvania 19103-1299
Re: FY 2019 CSS Contract
Dear Suzanne —
Thank you for meeting with us on June 28, 2018 in
the above matter. I am writing to memorialize our
discussion and to clarify the next steps following our
meeting.
This will confirm that in order to minimize disruption for those children and families currently being
served by DHS and CSS, DHS is prepared to offer
CSS a maintenance contract for the FY19 fiscal year.
As DHS made clear at our meeting, this contract is
not intended to address any matters in litigation, but
rather to allow DHS and CSS to continue their work
(SA 1)

SA 2
on behalf of these children and families during the
litigation.
The City and CSS agree that services to children
and families must remain paramount. Consequently,
the City agrees that new cases may only be referred
to CSS where the best interests of the child so demand, such as when a child shares a prior relationship with foster or pre-adoptive parents, or when
siblings should be placed together in an existing
home. These situations will require approval from
the Commissioner, Deputy Commissioner or First
Deputy Commissioner. We also agree that, under the
newly contemplated contract, DHS will continue
payment to CSS for the administration and maintenance of existing foster homes where children in
DHS’s care reside. As the number of children decreases, DHS is open to discussing any potential
staffing challenges in the context of this maintenance
contract.
Enclosed are the proposed scopes of work (collectively, the “Scope of Work”) for this contract. Please
note that the proposed scopes are for both general
foster care and specialized behavior health due to the
fact that CSS is serving some children who require
the special above. Although CSS will not be opening
new homes pursuant to this contract, CSS must
maintain certification for existing homes licensed
through your agency.
DHS sent the FY 2019 contract Award Letter to
James Amato on or around June 11, 2018, which
includes a proposed Rate Sheet and a not to exceed
amount of $2,400,000.00 for placement services. A
copy of the letter is enclosed for your reference.

SA 3
Please let me know if your understanding is contrary to that written above or if you have additional
questions or concerns. If you are in agreement with
the above, please contact me at (215) 683-5031 or
Valerie.Robinson@phila.gov so that we can begin
next steps in entering into this maintenance contract.
Very truly yours,
/s/ Valerie M. Robinson
Valerie M. Robinson
Chair, Corporate and Tax Group
VMR
Enclosure (3)
cc:
Cynthia Figueroa, Commissioner, Philadelphia Department of Human Services (w/encl)
Jessica Shapiro, First Deputy Commissioner, Philadelphia Department of Human Services (w/encl)
Kimberly Ali, Deputy Commissioner, Philadelphia
Department of Human Services (w/encl)

SA 4
ARCHDIOCESE OF PHILADELPHIA
222 North Seventeenth Street
Philadelphia, Pennsylvania 19103-1299
Telephone (215) 587-0511
Fax (215) 587-0512
OFFICE FOR GENERAL COUNSEL
October 25, 2018
Valerie Robinson
Chair, Corporate and Tax Group
City of Philadelphia Law Department
1515 Arch Street, 17th Street
Philadelphia, PA 19102
RE: Contract #19-20338 Catholic Social Services
FY19 PA-Foster and Kinship Care Services
Dear Valerie:
I am writing to notify you that Catholic Social Services will be submitting Contract #19-20338 Catholic
Social Services FY19 PA Foster and Kinship Care
Services and affixing it with the required esignature.
As your prior letter acknowledged, this contract is a
maintenance contract and “is not intended to address
any matters in litigation.” Nothing in this contract
should be considered to be an admission or concession of any issue with regard to the parties’ ongoing
litigation in Fulton, et al. v. City of Philadelphia, et
al, Nos. 2:18-cv2075 (E.D. Pa.) (pending), 18-2574 (3d
Cir.) (pending). CSS does not make any concessions
of its legal claims nor arguments by entering into
this contract. In particular, CSS notes that it is not
currently recruiting nor certifying new foster fami-

SA 5
lies, since it is unable to place children with newlycertified families, and that this contract will not
permit CSS to receive referrals to place children with
such families.
CSS intends to continue to seek preliminary and
permanent injunctive relief which would require the
resumption of regular foster care referrals to CSS
and the ability to resume operations under the preexisting contract and/or to enter into a full contract
with the City. CSS wishes to enter into a full contract like those the parties have entered into in prior
years, but no such contract has been presented to it
at this time.
Catholic Social Services is entering into this
maintenance contract in order to be able to continue
serving the children currently in its care, and nothing in this letter nor this contract should be construed to limit or surrender its right to continue
litigating its pending claims. With these reservations
and the concerns stated in its complaint and briefing
in the ongoing litigation, CSS has sent the contract
for signature.
Sincerely,
/s/ Suzanne Hueston
Suzanne Hueston, Esquire
SH/kb
cc:
James Amato, Secretary for Catholic Social
Services

SA 6
City of Philadelphia
Department of Human Services
Contract Number 19-20338
(290) Foster and Kinship Care Services
CONFORMED
PROVIDER AGREEMENT
Department of Human Services
THIS PROVIDER AGREEMENT is made as of
November 2, 2018 by and between the City of Philadelphia (the “City”), by and through its Department
of
Human
Services
(“Department”)
and
CATHOLIC SOCIAL SERVICES (“Provider”), a
nonprofit corporation, with its principal place of
business at 222 NORTH 17TH STREET,
PHILADELPHIA, PENNSYLVANIA 19103.
BACKGROUND
The City and Provider desire that Provider render
various services to the City, in accordance with the
provisions of this Provider Agreement, the City of
Philadelphia Professional Services Contract General
Provisions for the Department of Human Services
(the “General Provisions”), Cross Agency Response
for Effective Services (“CARES”) Limited License
Agreement (when applicable) and all of the other
attachments, exhibits, and documents which together constitute the Contract Documents as defined in
the General Provisions. A copy of the General Provisions is attached hereto and incorporated herein by

SA 7
reference. A copy of the CARES Limited License
Agreement is available on the Provider Extranet
(https://dhscormect.phila.gov/dhscms/enus/servicestandards.aspx) and incorporated by reference. A copy of the applicable below referenced
Performance and Service Standards formerly known
as Service Description and Contract Requirements,
Service Description, Performance Standards, Service
Standards, Procedural Manuals and/or Guides
(“Standards”) are available on the Provider Extranet
(https://dhscormect.phila.gov/dhscms/enus/servicestandards.aspx) and incorporated by reference.
WHEREAS, the City and Provider agree to enter
into this maintenance contract for the 2019 fiscal
year;
WHEREAS, the City and Provider agree that services to children and families must remain paramount;
WHEREAS, the City will continue payments to the
Provider for the administration and maintenance of
existing resource homes where children in DHS’s
care reside;
WHEREAS, Provider will not be opening new resource homes pursuant to this contract subject to the
exceptions referenced in the Scope of Services (PA-2);
and
WHEREAS, Provider agrees to maintain certification of existing resource homes licensed through its
agency.
In consideration of the mutual obligations set forth
herein, and intending to be legally bound, the City
and Provider covenant and agree as follows:

SA 8
ARTICLE I: GENERAL TERMS
1.1 Incorporation of Background.
The Background is incorporated by reference herein.
1.2 Definitions.
Capitalized terms shall have the meanings set forth
in the General Provisions.
ARTICLE II: SERVICES AND MATERIALS
2.1 Services and Materials.
Provider shall perform the Services and provide the
Materials described in the Attachments listed below,
which are attached hereto and incorporated herein
by reference:
(a)

PA-1: Service, Rate, Maximum Days/Units

(b)

PA-2: Scope of Services

Provider shall perform the Services and provide the
Materials described in the Exhibits listed below,
which are available on the Provider Extranet and
incorporated by reference:
(c)

PA-3: IOC Fiscal Guidelines for Community Umbrella Agencies and Providers

(d)

PA-4: CARES Limited License Agreement

(e)

PA-5: Balanced and Restorative Justice
Standards
ARTICLE III: TERM

3.1 Initial Term.
The initial term of this Contract shall commence on
JULY 1, 2018 and shall terminate on JUNE 30,
2019, unless terminated earlier in accordance with
the terms of the Contract.

SA 9
3.2 Additional Term(s).
(a) This Contract may be amended by the City, in
its sole discretion, in accordance with Section 2.2
(Additional Terms) of the General Provisions. Unless
otherwise stated below, the terms and conditions
applicable during the Initial Term shall be applicable
during an Additional Term.
ARTICLE IV: COMPENSATION
4.1 Amount.
As compensation for the Services and Materials
rendered and provided, the City covenants and
agrees to pay to Provider in accordance with the
following Attachments, which are attached hereto
and incorporated by reference, subject to all limitations on the allowability of cost items imposed by the
City of Philadelphia Cost Principles and Guidelines:
(a)

Attachment PA-1: Service, Rate, Maximum Days/Units

(b)

Attachment PA-2: Scope of Services

As compensation for the Services and Materials
rendered and provided, the City covenants and
agrees to pay to Provider in accordance with the
following Exhibits, which are available on the Provider Extranet and incorporated by reference, subject to all limitations on the allowability of cost
items imposed by the City of Philadelphia Cost
Principles and Guidelines:
(c)

Exhibit PA-3: IOC Fiscal Guidelines for
Community Umbrella Agencies and Providers

(d)

Exhibit PA-4: CARES Limited License
Agreement

SA 10
(e)

Exhibit PA-5: Balanced and Restorative
Justice Standards

Anything in this Contract to the contrary notwithstanding, in no event shall the amount certified by the Finance Department for Services and
Materials during the Initial Term or any Additional
Term exceed the maximum amount of Two Million, Nine Hundred Thousand, One Hundred
Ninety-Four Dollars ($2,900,194.00).
4.2 Manner of Payment.
(a) Payment shall be made after Provider’s timely
submission of invoices to the Commissioner, in the
number, form and content acceptable to the Commissioner by such additional supporting data and documentation as the Commissioner may require. All
payments to the Provider are contingent upon satisfactory performance of the terms and conditions of
this Contract. Provider shall submit its final invoice
not more than sixty (60) days from completion of the
Services and delivery of Materials. All payments to
Provider shall be by checks drawn by the City Treasurer.
(b) The City reserves the right to withhold or
offset against any funds payable to Provider for any
invoices for which the Commissioner asserts a discrepancy exists or for Provider’s failure to satisfactorily perform the terms of the Contract, as determined
solely by the City.
ARTICLE V: MISCELLANEOUS PROVISIONS
5.1 Notice.
Any notice required or permitted to be given under
the Contract shall be given in writing and shall be
personally delivered by hand with receipt obtained,

SA 11
by a national overnight express carrier (such as
Federal Express), by facsimile, by email, or sent by
registered or certified United States mail, return
receipt requested, addressed as follows:
IF TO THE CITY:
Attn:

Cynthia F. Figueroa, Commissioner
Department of Human Services
1515 Arch Street, 8th Floor
Philadelphia, PA 19102

Fax No.: 215-683-6023
Email: dhscontractsnotice@phila.gov
IF TO PROVIDER:
Attn:

James Amato, Secretary Catholic Social
Services
Catholic Social Services
222 N. 17th Street
Philadelphia, PA 19103

Fax No.: 215-587-2479
Email: jamato@chs-adphila.org
5.2 Balanced and Restorative Justice (BARJ)
Principles.
Provider shall incorporate the principles of BARJ
into Services provided hereunder. The key elements
of BARJ are accountability, competency development
and community protection, and Provider shall provide documented evidence of its efforts to give balanced attention to the protection of the community,
the imposition of accountability for offences committed, and the development of competencies to enable

SA 12
the child(ren) to become responsible and productive
members of society.
5.3 Performance Measurement and Quality
Management.
Quality and effectiveness are determined by the
extent to which social programs and social services
are successful in achieving positive changes in the
lives of the people they serve. A commitment to
quality and effectiveness requires that the City and
Provider articulate desired outcomes and determine
if services are moving clients towards them. To
support the achievement of person-centered outcomes, the City will work with Provider in some or
all of the following areas: developing performance
standards for services where they do not currently
exist; improving performance measurement through
the refinement of indicators and data collection
methodologies; assessing data quality and developing
strategies to improve it when needed; developing
strategies for enhanced involvement of key stakeholders, such as service recipients; and identifying
strategies for ongoing Provider quality management
activities. A quality improvement initiative will only
succeed if it is done in partnership. To that end, City
and Provider agree that their respective staffs will
work together cooperatively to make services more
responsive to the needs of the individuals being
served. In its role as partner in this initiative, the
City will offer training and technical assistance as
deemed appropriate by the City. Provider agrees to
participate in these training and technical assistance
activities as well as meetings and other processes
that support this initiative.

SA 13
5.4 Interpretation; Order of Precedence.
In the event of a conflict or inconsistency between
the terms of this Provider Agreement and any term,
condition or provision contained in any Exhibit
hereto, or any attachment to such Exhibit (including,
without limitation, any proposal of Provider), the
terms of this Provider Agreement shall control.
5.5 Additional Provisions.
Other provisions, including, without limitation,
OEO participation commitments and any exceptions
or modifications to the General Provisions of the
Contract, are set forth in the following clause(s) and
incorporated herein by reference:
(a) DHS is increasing its administrative efficiency
through the use of electronic record keeping and data
sharing technology. As these updates occur, the
Department will continue to notify Providers of these
technology requirement changes through written
notices. Failure to comply with any DHS technology
requirements (including, but not limited to the use of
P-Web and P-DRIVE) may result in a financial
penalty and/or a finding that an Event of Default has
occurred.
5.6 Acknowledgment of General Provisions.
Provider specifically acknowledges that Provider
has read and understands the terms and conditions
contained in the General Provisions and acknowledges that by executing this Provider Agreement, Provider shall be legally bound by all of the terms of this
Contract, including, but not limited to, those set
forth in the General Provisions.

SA 14
5.7 Acknowledgment of CARES Limited License Agreement.
Provider specifically acknowledges that Provider
has read and understands the terms and conditions
contained in the CARES Limited License Agreement
and acknowledges that by executing this Provider
Agreement, Provider shall be legally bound by all of
the terms of this Contract, including, but not limited
to, those set forth in the CARES Limited License
Agreement.
5.8 Acknowledgment of Standards.
Provider specifically acknowledges that Provider
has read and understands the terms and conditions
contained in the applicable above referenced Standards which is available on the Provider Extranet and
acknowledges that by executing this Provider
Agreement, Provider shall be legally bound by all of
the terms of this Contract, including, but not limited
to, those set forth in the above-referenced Standards.
(SIGNATURE PAGE TO FOLLOW)

SA 15
IN WITNESS WHEREOF, the Parties hereto, intending to be legally bound by all of the Contract
Documents, have caused the Contract to be executed
by their respective duly authorized officers as of the
date in the heading of this Provider Agreement.
APPROVED AS TO
FORM

THE CITY OF
PHILADELPHIA

MARCEL S. PRATT,
CITY SOLICITOR

Through: The Department of Human Services

Per: Crystal T. Espanol

Name: Crystal T. Es- By: Cynthia Figueroa
panol
Name: Cynthia Figueroa
Title:
Deputy
City Title: Commissioner
Solicitor
CATHOLIC SOCIAL
SERVICES
By: James Amato
Name: James Amato
Title: Vice President
By: Franz Fruchwald
Name: Franz Fruchwald
Title: Assistant Treasurer

SA 16
THE CITY OF PHILADELPHIA
PROFESSIONAL SERVICES CONTRACT
GENERAL PROVISIONS FOR DEPARTMENT
OF HUMAN SERVICES CONTRACTS
Revision Date: June 2018
*

*

*

ARTICLE III: PROVIDER’S DUTIES AND
COVENANTS
*

*

*

3.21 Rejection of Referral. Provider shall not
reject a child or family including, but not limited to, biological, kinship, foster, pre-adoptive,
or adoptive parents, prospective foster or
adoptive parents, for Services based upon the
location or condition of the family’s residence,
their environmental or social condition, their
actual or perceived race, ethnicity, color, sex,
sexual orientation, gender identity, religion,
national origin, marital status or for any other
reason if the profiles of such child or family
are consistent with Applicable Law, Provider’s
Scope of Services, and DHS’s applicable standards as listed in the Provider Agreement, unless an exception is granted by the Commis-

SA 17
sioner or the Commissioner’s designee, in
his/her sole discretion.
*

*

*

ARTICLE IX: INDEPENDENT CONTRACTOR;
INDEMNIFICATION; LITIGATION
COOPERATION
9.1 Independent Contractor. Provider is an
independent contractor and shall not in any
way or for any purpose be deemed or intended
to be an employee or agent of the City. Neither
Provider nor its agents, employees or Subcontractors shall in any way represent that they
are acting as employees, officials or agents of
the City.
*

*

*

ARTICLE XV: ADDITONAL
REPRESENTATIONS AND COVENANTS OF
PROVIDER RELATING TO CERTAIN
APPLICABLE LAWS
In addition to the representations, warranties and
covenants made by Provider in Article IV, Provider
further represents, warrants and covenants that, to
the extent of their applicability to Provider, Provider
is in compliance with the laws, ordinances,
regulations and executive orders described below. By
executing this Contract, Provider thereby certifies to
such compliance. Provider further certifies that the
representations, warranties, and covenants provided

SA 18
pursuant to this Article shall continue to remain true
throughout the Term of this Contract or any other
period of time required by such laws. False
statements to the City in or in connection with
this Contract, in or pursuant to any
representation or covenant made in this Article
XV or otherwise, are subject to the penalties of
18 Pa. C.S. § 4904 relating to unsworn
falsification to authorities, which may include
fines and imprisonment. In the event said
representations, warranties, and covenants are or
become untrue or inaccurate, Provider shall
promptly give notice thereof to the City, specifying
the manner in which said representation, warranty,
or covenant is untrue or inaccurate. The provisions of
this Article are not intended to limit the applicability
of the other provisions of this Contract, including,
without limitation, Provider’s agreement to comply
with all Applicable Law.
15.1 Non-Discrimination; Fair Practices. This
Contract is entered into under the terms of the
Charter, the Fair Practices Ordinance
(Chapter 9-1100 of the Code) and the Mayor’s
Executive Order No. 04-86 (the “Executive
Order”), as they may be amended from time to
time, and in performing this Contract,
Provider shall not discriminate or permit
discrimination against any individual because
of race, color, religion or national origin. Nor
shall Provider discriminate or permit
discrimination
against
individuals
in
employment, housing and real property
practices, and/or public accommodation
practices whether by direct or indirect practice

SA 19
of
exclusion,
distinction,
restriction,
segregation,
limitation,
refusal,
denial,
differentiation or preference in the treatment
of a person on the basis of actual or perceived
race, ethnicity, color, sex, sexual orientation,
gender identity, religion, national origin,
ancestry, age, disability, marital status, source
of income, familiar status, genetic information
or domestic or sexual violence victim status,
Human
Immunodeficiency
Virus
(HIV)
infection, or engage in any other act or
practice made unlawful under the Charter,
Chapter 9-1100, the Executive Order, or under
the nondiscrimination laws of the United
States or the Commonwealth of Pennsylvania.
In the event of any breach of this Section 15.1,
the City may, in addition to any other rights or
remedies available under this Contract, at law
or in equity, suspend or terminate this
Contract forthwith.
*

*

*

SA 20
CITY OF PHILADELPHIA
LAW DEPARTMENT
One Parkway
1515 Arch Street
Philadelphia, PA 19102-1595
April 16, 2019
Via E-mail and Hand Delivery
Suzanne Hueston
General Counsel
Office of General Counsel
Archdiocese of Philadelphia
222 North 17th Street
Philadelphia, Pennsylvania 19103-1299
Re:
FY2020 Catholic Social Services (“CSS”)
Placement Contract
Dear Suzanne:
I am writing to inform you that the City of Philadelphia Department of Human Services (“DHS”) has
issued award letters for FY2020 to the foster care
agencies with whom it contracts, including CSS. As
specified, per the enclosed letter, DHS has offered
CSS the same modified contract that the parties
entered into for FY2019.
DHS remains willing to enter into a full foster care
contract with CSS, as opposed to the maintenance
contract currently in place, on the condition that CSS
adhere to all requirements of that contract, including
those relating to compliance with the City’s nondiscrimination laws and policies. As we have previously explained, these laws and policies, as incorporated and rendered applicable by the City’s contract
for full foster care services, require foster care agen-

SA 21
cies to consider and certify otherwise-qualified
LGBTQ prospective foster parents on the same terms
and conditions as such agencies consider and certify
all other prospective foster parents.
If CSS wishes to enter into a full foster care contract with the City, and to comply with all contractual requirements, the City welcomes CSS’ full participation as a foster care provider, and DHS will amend
the FY20 award letter and contract accordingly.
Please do not hesitate to contact me at (215) 6835031 or Valerie.Robinson@phila.gov if you have
questions or concerns. I look forward to receiving
confirmation from you on how your client would like
to proceed and to the resolution of the contracting
process for FY2020.
Very truly yours,
/s/ Valerie M. Robinson
Valerie M. Robinson
Chair, Corporate and Tax Group
Enclosure
cc:
Cynthia Figueroa, Commissioner, Philadelphia Department of Human Services (w/encl)
Jessica Shapiro, First Deputy Commissioner, Philadelphia Department of Human Services (w/encl)
Kimberly Ali, Deputy Commissioner, Philadelphia
Department of Human Services (w/encl)

SA 22
CITY OF PHILADELPHIA
DEPARTMENT OF HUMAN SERVICES
1515 Arch Street, Philadelphia, PA 19102
215-683-FDHS (4347)
Commissioner
CYNTHIA F. FIGUEROA
First Deputy Commissioner
JESSICA S. SHAPIRO
Deputy Commissioners
Child Welfare Operations
KIMBERLY ALI
Finance
CHRISTOPHER SIMI
Juvenile Justice Services
TIMENE FARLOW
Administration and Management
VONGVILAY MOUNELASY
Performance Management and Technology
LIZA RODRIGUEZ
Prevention
WALESKA MALDONADO
April 15, 2019
James Amato, Secretary, Human Services
Catholic Social Services
222 North 17th Street, Room 328
Philadelphia, PA 19103
Re: FY 2020 Award Letter (290) SAA
Child Welfare Operations Division
Foster Care Services, $1,646,626.00

SA 23
Dear Secretary:
This letter is to provide you with information on the
City of Philadelphia Department of Human Services’
(hereinafter referred to as “DHS” or “Department”)
contract process for Fiscal Year 2020 beginning on
July 1, 2019. The funding levels referenced above
reflect the Department’s budget constraints and
priorities.
Consistent with the City’s policy of nondiscrimination and its prior notices to you to the
same effect, DHS is offering CSS the same limited
maintenance contract that CSS agreed to for
FY2019. DHS will continue to make payment to CSS
for the administration and maintenance of existing
foster homes where children in DHS’ care reside.
As was the case in FY2019, the FY2020 contract
will allow for referrals of new child foster care
placements only in limited authorized circumstances
where a CSS placement is in the best interests of the
child, such as when a child shares a prior relationship with the foster or pre-adoptive parents, or when
siblings should be placed together. Also consistent
with terms of the FY2019 contract, the FY2020
contract will provide time for the orderly transition
of services, should that become necessary. As was
the case in FY2019, the contract amount has been
adjusted from prior years to reflect the volume of
services projected under the FY2019 and FY2020
version of the contract.
Please be advised that DHS is not obligated to
make any payment to your agency until after the
execution and conformance of a formal written
contract, containing such terms and conditions as are
satisfactory to DHS; and provided that your agency

SA 24
has satisfied any conditions precedent to the start of
work (e.g. insurance certificates or licenses) as required by the contract. Please review this letter and
its attachments thoroughly as some of the information requested will be used to develop your agency’s contract. If you have any questions about the
content of this letter or its attachments, please
contact your contract Conformance Manager. To
obtain your Conformance Manager’s contact information, you may call the Director of Contracts &
Audit, Robert Hodge, at (215) 683-4200. Please
email any questions to dhscontracts@phila.gov.
On behalf of the Department and the children and
families we serve, I would like to express our thanks
and appreciation for your commitment to providing
high quality and effective services to Philadelphia’s
children and families. During this changing and
challenging time the strength of the public/private
partnership is critical as we work together toward
the common goal of ensuring the overall safety and
well-being of children and families in our City.
Sincerely,
/s/ Cynthia F. Figueroa
Cynthia F. Figueroa
Commissioner
cc:

Valerie M. Robinson, Esquire

Kimberly Ali, Deputy Commissioner
Robert Hodge, Director of Contracts and Audit
Rita Cairy, Contracts Administrator

SA 25
ARCHDIOCESE OF PHILADELPHIA
222 North Seventeenth Street
Philadelphia, Pennsylvania 19103-1299
Telephone (215) 587-0511
Fax (215) 587-0512
OFFICE FOR GENERAL COUNSEL
August 29, 2019
Valerie Robinson
Chair, Corporate and Tax Group
City of Philadelphia Law Department
1515 Arch Street, 17th Floor
Philadelphia, PA 19102
RE: Contract #19-20338-01 Catholic Social Services
FY20 PA-Foster and Kinship Care Services
Dear Valerie:
Contract #19-20338-01 Catholic Social Services
FY20 PA Foster and Kinship Care Services will be esigned by Catholic Social Services and delivered to
you shortly.
As with the FY19 contract, and as your FY19 letter
acknowledged, this contract is a maintenance contract and “is not intended to address any matters in
litigation.” Nothing in this contract should be considered to be an admission or concession of any issue
with regard to the parties’ ongoing litigation in
Fulton, et al. v. City of Philadelphia, et al, Nos. 2:18cv-2075 (E.D. Pa.) (pending), 18-2574 (3d Cir.), 19123 (U.S.) (pending). CSS does not make any concessions of its legal claims nor arguments by entering
into this contract. In particular, CSS notes that it is
not currently recruiting nor certifying new foster

SA 26
families to care for foster children under this contract, since it is unable to place children with newlycertified families under this contract, and that this
contract will not permit CSS to receive referrals to
place children with such families.
As you are aware, CSS is continuing to seek injunctive relief which would require the resumption of
regular foster care referrals to CSS and the ability to
enter into a full contract with the City. CSS wishes
to enter into a full contract on terms the parties have
entered into in prior years, but no such contract has
been presented to it at this time.
Catholic Social Services is entering into this
maintenance contract in order to be able to continue
serving the children currently in its care, and nothing in this letter nor this contract should be construed to limit or surrender its right to continue
litigating its pending claims. With these reservations
and the concerns stated in its complaint and briefing
in the ongoing litigation, CSS has sent the contract
for signature.
Sincerely,
/s/ Suzanne Hueston
Suzanne Hueston, Esquire
SH/kb
Enc.

SA 27
City of Philadelphia
Department of Human Services
Contract Number 19-20338-01
Original Contract Number 19-20338
290 – Foster and Kinship Care
CONFORMED
STANDARD AMENDMENT AGREEMENT
THIS
STANDARD
AMENDMENT
AGREEMENT (“Amendment Agreement”) is made
as of September 23, 2019 and effective July 1, 2019
(the “Effective Date”) by and between the City of
Philadelphia (“the City”), by and through its
DEPARTMENT OF HUMAN SERVICES (“Department”), and CATHOLIC SOCIAL SERVICES
(“Provider”), a nonprofit corporation, with its principal place of business at 222 NORTH 17TH STREET,
PHILADELPHIA, PENNSYLVANIA 19103.
BACKGROUND
The City and Provider entered into a certain Contract, Contract Number 19-20338, dated November
2, 2018, which includes the City of Philadelphia
Professional Services Contract General Provisions for
the Department of Human Services (the “General
Provisions”), the Provider Agreement, Cross Agency
Response for Effective Services (“CARES”) Limited
License Agreement (when applicable), and any and
all attachments, exhibits and documents thereto
(collectively, the “Base Contract”), wherein Provider

SA 28
agreed to render various Services to the City in
accordance therewith; and
WHEREAS, the City and Provider agree to enter
into this maintenance contract for the 2020 fiscal
year;
WHEREAS, the City and Provider agree that services to children and families must remain paramount;
WHEREAS, the City will continue payments to the
Provider for the administration and maintenance of
existing resource homes where children in DHS’ care
reside;
WHEREAS, Provider will not be opening new resource homes pursuant to this contract subject to the
exceptions referenced in the Scope of Services (PA-2)
of the Base Contract, as amended; and
WHEREAS, Provider agrees to maintain certification of existing resource homes licensed through its
agency;
Hereinafter, the Base Contract and all prior
amendments, if any, shall be referred to as the “Base
Contract as Amended;” and
It is necessary to INCREASE the amount of compensation payable under the Base Contract as
Amended by One Million, Six Hundred Forty-Six
Thousand, Six Hundred Twenty-Six Dollars
($1,646,626.00), in order for Provider to continue to
render the Services and provide the Materials specified in the Base Contract as Amended and this
Amendment Agreement; and
The City and Provider have agreed to amend certain terms and conditions of the Base Contract as
Amended, as set forth herein; and

SA 29
In consideration of the mutual obligations set forth
herein, and each intending to be legally bound, the
City and Provider covenant and agree as of the
Effective Date as follows:
ARTICLE I: AMENDMENTS TO THE
CONTRACT
With the exception of the following amendments set
forth in this Amendment Agreement, and subject to
councilmanic appropriation of funds, the terms and
conditions of the Provider Agreement “as amended”
shall be and remain in full force and effect:
1.1 Incorporation of Background.
The Background is incorporated by reference herein.
1.2 Definitions.
Capitalized terms not otherwise defined herein
shall have the meanings set forth in the Base Contract as Amended.
1.3 Term.
The term of the Base Contract as Amended is extended for an Additional Term commencing JULY 1,
2019 and expiring JUNE 30, 2020.
1.4 Compensation.
As compensation for the Services and Materials
being provided under this Contract, the City covenants and agrees to set the amount of compensation
payable to Provider for the current contract term at
One Million, Six Hundred Forty-Six Thousand,
Six Hundred Twenty-Six Dollars ($1,646,626.00).
Notwithstanding anything in the Contract to the
contrary, in no event shall the amount certified by
the Finance Department for Services and Materials

SA 30
under the Contract, including this Amendment
Agreement, exceed Four Million, Five Hundred
Forty-Six Thousand, Eight Hundred Twenty
Dollars ($4,546,820.00).
1.5 Services and Materials.
Section 2.1 of the Provider Agreement, is amended
in accordance with the attachments listed below,
which are attached to this Amendment Agreement
and incorporated herein by reference.
(a) S.A.A.-1:
Service,
Days/Units

Rate,

Maximum

Section 2.1 of the Provider Agreement, is
amended in accordance with the Exhibits listed
below, which are available on the Provider Extranet and incorporated herein by reference.
(b) S.A.A.- 2: IOC Fiscal Guidelines for Community Umbrella Agencies and Providers
(c)

S.A.A.- 3: CARES Limited License Agreement

1.6 Additional Provisions.
Other provisions, including, without limitation,
OEO participation commitments and any exceptions
or modifications to the General Provisions of the
Contract, are set forth in the following clause(s) and
incorporated herein by reference:
(a) DHS is increasing its administrative efficiency
through the use of electronic record keeping and data
sharing technology. As these updates occur, the
Department will continue to notify Providers of these
technology requirement changes through written
notices. Failure to comply with any DHS technology
requirements (including, but not limited to the use of

SA 31
P-Web and P-DRIVE) may result in a financial
penalty and/or a finding that an Event of Default has
occurred.
(b) Section 15.1, “Non-Discrimination; Fair Practices,” of the General Provisions is amended to read
as follows:
“In performing this Contract, Provider must comply with the terms of the Charter, the Fair Practices Ordinance (Chapter 9-1100 of the Code) and
the Mayor’s Executive Order No. 04-86 (the “Executive Order”), as they may be amended from
time to time. In addition, to the extent those provisions do not explicitly prohibit or cover certain
types of discriminatory conduct, in performing
this Contract, Provider has broader obligation
under this Contract. In connection with providing
any service or fulfilling any duty under this Contract, Provider shall not discriminate or permit
discrimination against any individual on the basis
of actual or perceived race, ethnicity, color, sex,
sexual orientation, gender identity, religion, national origin, ancestry, age, disability, marital
status, source of income, familial status, genetic
information; domestic or sexual violence victim
status; or Human Immunodeficiency Virus
(“HIV”) infection status. In the event of any
breach of this Section 15.1, the City may, in addition to any other rights or remedies available under this Contract, at law or in equity, suspend or
terminate this Contract forthwith.”
(c) Section 15.1, “Chapter 17-1300 of The Philadelphia Code: Philadelphia 21st Century Minimum
Wage and Benefits Standard,” is amended to read as
follows:

SA 32
(a) If Provider or any Subcontractor at any tier is
an Employer subject to the requirements of Chapter
17-1300 of the Code, as that term is defined in Section 17-1302 and described in Section 17-1303 of the
Code, then, absent a waiver, during the Initial Term
and any Additional Term, in addition to any applicable state and federal requirements, it shall provide
and cause any subcontractors at any tier that are
also Employers to provide their respective covered
Employees with at least the minimum wage standard
and minimum benefits standard and notice thereof,
as required under applicable law. A summary of the
current requirement is as follows:
(1)
Term of Contract and Effective Date of
Minimum Wage Rates.
a)

For contracts with a term of one year or
less, the rate applicable on the effective
date of the contract is the rate for the
entire term of the contract.

b)

For renewals and amendments with a
term of one year or less, the rate applicable on the effective date of the renewal or amendment is the rate for work
performed during the term of the renewal or amendment and remains the
rate throughout the term of the renewal
or amendment.

c)

For contracts, renewals and amendments with a term longer than one year,
the applicable rate on the effective date
of the contract shall apply until the next
June 30. On the next July 1, the new
rate effective on that July 1 date shall
apply during the period from July 1

SA 33
through the following June 30. Each July 1, the rate may increase.
(2)
Minimum Wage Rates. Absent a waiver,
an Employer subject to Chapter 17-1300 shall pay
each Employee an hourly wage, excluding benefits, equal to:
Effective Date between April 19, 2019, and
June 30, 2019, $12.40;
Effective Date between July 1, 2019, and
June 30, 2020, $13.25;
Effective Date between July 1, 2020, and
June 30, 2021, $13.75;
Effective Date between July 1, 2021, and
June 30, 2022, $14.25;
Effective Date between July 1, 2022, and
June 30, 2023, $15.00; and
Effective Date starting July 1, 2023, and
thereafter, $15.00 multiplied by the CPI Multiplier, provided that the minimum wage shall not be
less than the previous year’s minimum wage. The
CPI Multiplier is calculated annually by the
City’s Director of Finance by dividing the most
recently published Consumer Price Index for all
Urban Consumers All Items Index for Philadelphia, Pennsylvania, by the most recently published
Consumer Price Index for all Urban Consumers
(“CPI-U”) of each calendar year. The then current
minimum hourly wage applicable to City contractors and subcontractors will be posted on the
City’s website.
(3)
Minimum Benefits. Absent a waiver, if
the Employer is subject to Chapter 17-1300, to the
extent the employer provides health benefits to

SA 34
any of its employees, the Employer shall provide
each full-time, non-temporary, non-seasonal covered Employee with health benefits at least as
valuable as the least valuable health benefits that
are provided to any other full-time employees of
the Employer. The Employer shall also provide to
each covered Employee at least the minimum
number of earned sick leave days required by Section 17-1305(2) of the Code.
(b)
Absent a waiver, if Provider is subject to
Chapter 17-1300, Provider shall promptly provide
to the City all documents and information as the
City may require verifying its compliance and
that of all covered Employers providing Services
under the Contract with the requirements of
Chapter 17-1300. Each covered Employer shall
notify each affected Employee what wages and
benefits are required to be paid pursuant to
Chapter 17-1300.
(c)
Absent a waiver, if Provider is subject to
Chapter 17-1300, Provider shall take such steps
as are necessary to notify its covered Subcontractors of the requirements of this Section 14.10 and
to cause such covered Subcontractors to notify
lower-tier covered subcontractors of these requirements, including, without limitation, by incorporating this Section 14.10, with appropriate
adjustments for the identity of the parties, in its
Subcontracts with such covered Subcontractors.
(d)
A Provider or Subcontractor at any tier
subject to Chapter 17-1300 that fails to comply
with these provisions may, after notice and a
hearing before the Director of Finance or such
other officer or agency designated by the Mayor,

SA 35
be suspended from receiving financial assistance
from the City or from bidding on and/or participating in future City contracts, whether as a
prime contractor or a subcontractor, for up to
three (3) years. City Council may also initiate a
similar suspension or debarment process. Such
suspension or debarment shall be in addition to
any of the other sanctions or remedies set forth in
Chapter 17-1300 or this Contract.
(e)
Without limiting the applicability of Articles XI (Events of Default) and XII (Remedies)
above, the failure of a Provider or Subcontractor
at any tier subject to Chapter 171300 to comply
with these provisions shall constitute a substantial breach of this Contract entitling the City to
all rights and remedies provided in this Contract
or otherwise available at law or in equity.
(f)
Provider’s covered Employees shall be
deemed third-party beneficiaries of Provider’s
representation, warranty, and covenant to the
City under this Section 14.10 only, and the covered Employees of a Subcontractor at any tier
that is also a covered Employer performing Services directly or indirectly under a Subcontract at
any tier shall be deemed third-party beneficiaries
of their Employer’s representation, warranty, and
covenant to Provider or such Subcontractors at
any tier, as the case may be, under this Section
14.10.
(g)
The City may grant a partial or total
waiver of Chapter 17-1300 based on specific stipulated reasons elaborated in Section 17-1304 of the
Code.

SA 36
1.7 Acknowledgment of General Provisions.
Provider specifically acknowledges that Provider
has read and understands the terms and conditions
contained in the General Provisions and acknowledges that by executing this Amendment Agreement,
Provider shall be legally bound by all of the terms of
this Contract, including, but not limited to, those set
forth in the General Provisions.
1.8 Electronic Payments. Section 4.2, “Manner
of Payment,” of the Base Contract is amended to read
in its entirety as follows:
Manner of Payment.
(a)
Payment shall be made after Provider’s
timely submission of invoices to the Responsible
Official, in the number, form and content acceptable to the Responsible Official, accompanied
by such additional supporting data and documentation as the Responsible Official may require. All
payments to Provider are contingent upon satisfactory performance of the terms and conditions of
this Contract. Provider shall submit its final invoice not more than sixty (60) days from completion of the Services and delivery of Materials.
(b)
All payments to the Provider under the
Contract on or after July 1, 2019 shall be accomplished by deposits into the Provider’s designated
bank account by electronic means. Before any
such City payments are made, Provider must
supply the City with the information necessary
for the City to initiate electronic payments by
completing one of the electronic payment processing enrollment forms available on the City’s
vendor
portal
at
https://secure.phila.gov/finance/vendomayments.

SA 37
(c)
Payments to Provider before July 1,
2019 shall be made as described in paragraph (b)
if Provider has registered according to the requirements of that paragraph or by checks drawn
by the City Treasurer.
(d)
The City reserves the right to withhold
or offset against any funds payable to Provider for
any invoice for which the Responsible Official asserts a discrepancy exists or for Provider’s failure
to satisfactorily perform the terms of the Contract, as determined solely by the City.
1.9 Acknowledgment of Standards.
Provider specifically acknowledges that Provider
has read and understands the terms and conditions
contained in the applicable above referenced Performance and Service Standards (“Standards”) formerly
known as Service Description and Contract Requirements, Service Description, Performance
Standards, Service Standards, Procedural Manuals
and/or Guides which are available on the Provider
Extranet at (https://dhsconnect.phila.govidhscms/enusiservicestandards.aspx) which are incorporated to
this Amendment Agreement by reference. Provider
acknowledges that by executing this Amendment
Agreement, Provider shall be legally bound by all of
the terms of this Contract, including, but not limited
to, those set forth in the Standards currently published on the Provider Extranet and any and all
subsequent amendments.
1.10 Electronic Signatures.
The City and Provider agree to execute this
Amendment Agreement electronically using the
means of electronic signature provided below.

SA 38
(SIGNATURE PAGE TO FOLLOW)

SA 39
IN WITNESS WHEREOF, the Parties hereto, intending to be legally bound by all of the Contract
Documents, have caused the Contract to be executed
by their respective duly authorized officers as of the
date in the heading of this Standard Amendment
Agreement.
APPROVED AS TO
FORM

THE CITY OF
PHILADELPHIA

MARCEL S. PRATT,
CITY SOLICITOR

Through: The Department of Human Services

Per: Amanda Stewart By: Cynthia Figueroa
House
Name: Cynthia Figueroa
Name: Amanda Stew- Title: Commissioner
art House
Title:
Deputy
Solicitor

City
CATHOLIC SOCIAL
SERVICES
By: James Amato
Name: James Amato
Title: Vice President
By: Franz Fruchwald
Name: Franz Fruchwald
Title: Assistant Treasurer

SA 40
CITY OF PHILADELPHIA
DEPARTMENT OF HUMAN SERVICES
1515 Arch Street, Philadelphia, PA 19102
215-683-4DHS (4347)
Commissioner
KIMBERLY ALI
Deputy Commissioners
Policy Development and System Enhancement
GARY D. WILLIAMS
Child Welfare Operations
SAMUEL B. HARRISON, III
Juvenile Justice Services
NELSON R. WALKER
Administration and Management
VONGVILAY MOUNELASY
July 15, 2020
James Amato, Secretary, Human Services
Catholic Social Services
222 North 17th Street, Room 328
Philadelphia, PA 19103
Re: FY 2021 Award Letter (290) SAA
Child Welfare Operations Division
Foster Care Services, $1,646,626.00
Dear Secretary:
This letter is to provide you with information on the
City of Philadelphia Department of Human Services’
(hereinafter referred to as “DHS” or “Department”)
contract process for Fiscal Year 2021 beginning on
July 1, 2020. The funding levels referenced above
reflect the Department’s budget constraints and
priorities. However, please be advised that the

SA 41
authorized levels of service and the continued
funding of contracts is contingent upon the
availability of proposed City, State and Federal
funds and this award letter does not guarantee
your agency a contract with DHS.
Please be advised that DHS is not obligated to
make any payment to your agency until after the
execution and conformance of a formal written
contract, containing such terms and conditions as are
satisfactory to DHS; and provided that your agency
has satisfied any conditions precedent to the start of
work (e.g. insurance certificates or licenses) as required by the contract. Please review this letter and
its attachments thoroughly as some of the information requested will be used to develop your agency’s contract. If you have any questions about the
content of this letter or its attachments, please
contact your contract Conformance Manager. To
obtain your Conformance Manager’s contact information, you may call the Director of Contracts &
Audit, Robert Hodge, at (215) 683-4200. Please
email any questions to dhscontracts@phila.gov.
On behalf of the Department and the children and
families we serve, I would like to express our thanks
and appreciation for your commitment to provide
high quality and effective services to Philadelphia’s
children and families. During this changing and
challenging time the strength of the public/private
partnership is critical as we work together toward
the common goal of ensuring the overall safety and
well-being of children and families in our City.

SA 42
Sincerely,
/s/ Kimberly Ali
Kimberly Ali
Commissioner
cc:
Samuel B. Harrison III, Deputy Commissioner
Child Welfare Operations
Robert Hodge, Director of Contracts and Audit
Rita Cairy, Contracts Administrator

